No. 20-112
IN THE

Supreme Court of the United States
__________
SHERRY HERNANDEZ,
Petitioner
v.
PNMAC MORTGAGE OPPORTUNITY
FUND INVESTORS, LLC; et al.,
Respondents
__________
On Petition for Writ of Certiorari
to the California Court of Appeal,
Second Appellate District, Division Five
__________

REPLY BRIEF
__________
Rhonda Hernandez
Counsel of Record
Hernandez Law Office
P.O. Box 16924
Galveston, Texas 77552
409) 939-4546
Rhonda.Hdz@gmail.com
Counsel for Petitioner
October 16, 2020

TABLE OF CONTENTS
TABLE OF CONTENTS .......................................ii
TABLE OF AUTHORITIES ................................iii
REPLY TO JURISDICTIONAL STATEMENT ...1
REPLY TO RESPONDENTS’ STATEMENT OF
THE CASE .............................................................4
REASONS TO GRANT THE PETITION ...........11
CONCLUSION ....................................................12

iii

TABLE OF AUTHORITIES

Case

Page(s)

Bradley v. Duncan ..........................................................1
(9th Cir. 2002) 315 F.3d 1091
Carter v. Texas ................................................................1
(1900) 177 U.S. 442
Frank v. Magnum.............................................................2
(1915) 237 U.S. 309
Parker v. Illinois ..............................................................1
(1948) 333 U.S. 571
Quackenbush v. Superior Court ......................................6
(2000) 79 Cal. App. 4th 867
Segan LLC v. Zynga Inc. ................................................11
(N.D.Cal. 2015) 131 F. Supp. 3d 956
Street v. New York ..................................................1, 5, 10
(1969) 394 U.S. 576
United States ex rel. Szymoniak v. Am. Home
Mortg. Servicing, Inc. ..................................................6, 9
(2014 U.S.Dist.LEXIS 197568)
(D.S.C. July 25, 2014) No. 0:10-cv-01465-JFA
Yvanova v. New Century Mortgage Corp. ...................3, 9
(2016) 62 Cal. 4th 919

Statutes
12 U.S.C. § 2605(e) .........................................................8
C.F.R. Title 12, Ch. X, Pt. 1024.35..................................8

iv

USCS Supreme Court Rule 42.2 ...................................10
Cal. Civil Code § 2936 ....................................................3
Cal. Penal Code § 470 .....................................................4

Other
MERS Settlement and Consent Orders .......................6, 7
https://www.occ.gov/news-issuances/newsreleases/2011/nr-occ-2011-47h.pdf
National Settlement Agreements ....................................6
http://www.nationalmortgagesettlement.com/
files/Consent_Judgment_Citibank-4-11-12.pdf
Szymoniak Second Amended Complaint in PACER ...7, 9
https://ecf.scd.uscourts.gov/cgi-bin/
show_multidocs.pl?
caseid=175574&arr_de_seq_nums=149&magic_num
=&pdf_header=&hdr=&pdf_toggle_possible=1&cas
eid=175574&zipit=&magic_num=&arr_de_seq_num
s=149&got_warning=&create_roa=&create_appendi
x=&bates_format=&dkt=&got_receipt=1
Osceola County, Florida Forensic Examination ..............7
https://www.osceolaclerk.com/Content/
UploadedContent/Examination/
OC_Forensic_Examination.pdf

1

REPLY TO JURISDICTIONAL
STATEMENT
Respondent challenges this Court’s jurisdiction to
grant the Petition for Writ of Certiorari (the
“Petition”) and asserts that Petitioner’s Statement of
Jurisdiction is deficient for failure to state when the
federal question was raised in the action from which
the Petition seeks review as required by Rule 14.1(g).
Petitioner replies.
“The issue whether a federal question was
sufficiently and properly raised in the state courts is
itself ultimately a federal question, as to which this
Court is not bound by the decision of the state
courts.” Street v. New York (1969) 394 U.S. 576, 583.
See also Parker v. Illinois, 333 U.S. 571, 574 (1948);
Carter v. Texas, 177 U.S. 442, 447 (1900). In Street,
this Court found that a federal question was raised
in an oral motion and appellate briefs, thus the
question was properly before this Court. This Court
wrote, “No particular form of words or phrases is
essential, but only that the claim of invalidity and the
ground therefor be brought to the attention of the state
court with fair precision and in due time. And if the
record as a whole shows either expressly or by clear
intendment that this was done, the claim is to be
regarded as having been adequately presented.
(Footnote omitted.)” Id. at 584-85.
Unlike Street, which involved the known issue of
the constitutional invalidity of a state statute, as
applied, Petitioner here was relying on the state
courts to provide procedural due process by following
the longstanding doctrine of the law of the case.
Petitioner did not expect that the California Supreme

2
Court would allow the violation of Petitioner’s Due
Process Rights by denying review of the clear error of
the Court of Appeal in its November 12, 2019
Opinion (the “2019 Opinion”). (See Pet. App.2).
The July 27, 2016 Opinion of the Court of Appeal
(the “2016 Opinion”) was the law of the case. (Pet.
App.4). The appellate court refused to take judicial
notice of the second allonge to a copy of the Note at
issue in the action (the “Second Allonge”), which
suddenly appeared in a bankruptcy proceeding filed
by a co-borrower, and rejected its authentication by
the declaration of an employee of PennyMac Loan
Servicing LLC (“PennyMac”). In the 2019 Opinion,
the appellate court reversed itself and took judicial
notice of the Second Allonge, sustaining the trial
court’s clear violation of the law of the case doctrine
which Respondents disregarded on remand from the
Court of Appeal.
The doctrine of the law of the case is well settled
in American jurisprudence. Bradley v. Duncan (9th
Cir. 2002) 315 F.3d 1091, 1098 (“It is a fundamental
principle of jurisprudence . . . that a question of fact
or of law distinctly put in issue and directly
determined by a [criminal or civil] court of competent
jurisdiction cannot afterwards be disputed between
the same parties.” Id. (citing Frank v. Magnum, 237
U.S. 309, 334 (1915) (“California recognizes this
application of the law of the case doctrine”).
In the 2016 Opinion and Order for remand, the
Court of Appeal made the essential determination in
denying Respondents’ Request for Judicial Notice
(“RJN”) of the disputed Second Allonge and a related
declaration by which Respondents attempted to

3
establish that the beneficial interest in the Note was
transferred before the purported Trustee’s Sale. The
Court of Appeal wrote,
“Further, even if it were proper to take judicial
notice of the truth of the facts to which Garcia
attested in her declaration, there is nothing in
the declaration or on the second allonge to the
Note itself—which is undated—that
establishes when PNMAC came to be its
holder. Without a basis to conclude PNMAC
was the holder at the time it instituted
foreclosure proceedings, we are convinced
there remains a reasonable possibility plaintiff
can state a proper wrongful foreclosure claim.”
(Pet. App. 68-69).
The court explained its reasoning for denying the
RJN, “Not only is the second allonge to the Note
undated, it is executed on CitiMortgage’s behalf “[b]y
and through its Attorney in Fact PNMAC Capital
Management LLC.” The parties have not pointed to a
document in the record before us memorializing an
agreement by CitiMortgage to have PNMAC Capital
Management LLC act as its attorney in in fact.” Id.
at 69.
Finally stating, “If PNMAC could properly and
conclusively establish at this stage of the proceedings
that it did hold the Note at the relevant time, that
would be dispositive and preclude a wrongful
foreclosure cause of action because a deed of trust
automatically transfers with the Note it secures—
even without a separate assignment.” Id., citing
Cal.Civ.Code § 2936; Yvanova, 62 Cal. 4th 919, 927
(2016).

4
The 2016 Opinion established the law of the case
with respect to the RJN of the Second Allonge upon
which the Respondents relied in this action.
In the 2019 Opinion, the Court of Appeal
overruled itself and violated the law of the case
doctrine without any new facts, writing, “A second
allonge to the Note indicates “CitiMortgage, Inc. [b]y
and through its Attorney in Fact PNMAC Capital
Management LLC” endorsed the note in blank, which
would operate to assign its interest to whoever
actually holds the Note.” (Pet. App.37). This
conclusion directly contradicts the 2016 Opinion
which was authored by the same justice of the Court
of Appeal.

REPLY TO RESPONDENTS’ STATEMENT
OF THE CASE
The Respondents’ Statement of the Case contains
fundamental errors which must be corrected by this
Reply. The errors will be presented in the order they
appear, supported by references to the record and
briefs filed below.1
Respondent’s False Contention Regarding
Petitioner’s “Default”. (Respondents’ Brief in
Opposition, “RBO” at 1; Pet. 3-4).

1Petitioner

herself must correct an error in her Petition
for Writ of Certiorari. Page 4 references 8 U.S.C. § 1324c
but Title 8 of the United States Code governs “Aliens and
Nationality” and the citation to 8 U.S.C. § 1324c is
inapplicable. The Second Allonge and the Assignment of
Deed of Trust at issue in the action are alleged to be
forged documents to which the California Penal Code §
470 applies. Petitioner apologizes to the Court for the
mistaken citation.

5
Petitioner was not in default when the servicing
of the subject debt was claimed by PennyMac. (Pet.
3-4). Petitioner’s Third Amended Complaint (“TAC”)
includes exhibits supporting this allegation: a loan
modification plan from CitiMortgage, Inc. (TAC
Ex.17), cancelled checks to show compliance with the
plan (TAC Ex.18; 1CT226-234). When PennyMac
claimed the right to service the Note secured by the
Deed of Trust, PennyMac tried to collect on a
mysterious balance of $24,902.60 and refused to
itemize it. (Pet. 5; 1CT50-51). The ensuing dispute led

to a forced-placed default by Respondents’ actions.
(TAC Ex.21, 23-25, 27; 2CT239-255).
The Respondent’s assertion that the federal claim
was not raised below. (RBO 2).
The violation of Due Process arose in the
proceedings below. Similar to counsel in Street,
Petitioner’s counsel objected when the trial court
took judicial notice of the same documents refused by
the Court of Appeal when the Respondents submitted
the same RJN again, in violation of the doctrine of
the law of the case. (5CT1006-1011; RT603).
Petitioner could not have anticipated that Justice
Baker, who authored the 2016 remand, would
reverse himself in 2019. Justice Baker also authored
Figueroa v. U.S. Bank N.A. (Apr. 3, 2019, No.
B287457) Cal. App. 5th [2019 Cal. App. Unpub.
LEXIS 2317, attached hereto as Exhibit A]. Because
Figueroa is unpublished, the Opinion is referenced
here only to demonstrate Justice Baker’s position on
the doctrine of the law of the case.
“The law of the case doctrine states that when,
in deciding an appeal, an appellate court

6
‘states in its opinion a principle or rule of law
necessary to the decision, that principle or rule
becomes the law of the case and must be
adhered to throughout its subsequent progress,
both in the lower court and upon subsequent
appeal” [Citation.]” (Citing Quackenbush v.
Superior Court (2000) 79 Cal. App. 4th 867,
874) (emphasis added). Id. at 34.
Taking judicial notice of documents previously
rejected by the appellate court violates the law of the
case doctrine. The law of the case doctrine is a
fundamental element of due process, recognized in
state and federal courts. Petitioner is not raising a
federal claim for the first time, but is coming to this
Court for vindication of her Due Process Rights.
“MERS”. (RBO 2; Pet. 5-7,25,28).
Petitioner has not mischaracterized the
operations of the MERS® System. Petitioner’s
characterization of the MERS® System is taken from
the MERS® System Consent Order of 2011, and the
National Settlement Agreements of 2012.2 These
agreements set forth the guidelines for foreclosure
proceedings, in general conformance with state laws.
Szymoniak encapsulates the unscrupulous acts of the
members abusing the MERS® System, which directly
led to the National Settlement Agreements. (United
States ex rel. Szymoniak v. Am. Home Mortg.
Servicing, Inc. (D.S.C. July 25, 2014, No.0:10cv-01465-JFA, 2014 U.S. Dist. LEXIS 197568).

https://www.occ.gov/news-issuances/news-releases/2011/
nr-occ-2011-47h.pdf at p.14; http://
www.nationalmortgagesettlement.com/files/
Consent_Judgment_Citibank-4-11-12.pdf at Ex.A
2

7
Szymoniak’s Second Amended Complaint details the
conduct and identifies the actors by name.3 (Pet. 28).
Respondents failed to follow the Consent
Agreement between Mortgage Electronic
Registration Systems, Inc. (“MERS, Inc.”) and
MERSCORP, Inc., next known as MERSCORP
Holdings, Inc. (“MERSCORP”), known collectively as
the MERS® System. County Recorders’ audits reveal
in detail the real consequences from the loan
servicers’ use of MERS® System.4 (Pet. 25-28).
No beneficial interest in the “Loan”5. (RBO 2; Pet.
5-8).
Respondents do not deny that the Note was listed
on the MERS® System website as being claimed by
another party or that there were other competing
claimants to the Note. Respondents fail to
acknowledge that letters from PennyMac gave
different dates of acquisition of the Note, including
after the Trustee’s Notice of Sale. (Pet. 8).
The second allonge to Note. (RBO 2; Pet. 7- 9).
https://ecf.scd.uscourts.gov/cgi-bin/show_multidocs.pl?
caseid=175574&arr_de_seq_nums=149&magic_num=&pd
f_header=&hdr=&pdf_toggle_possible=1&caseid=175574&
zipit=&magic_num=&arr_de_seq_nums=149&got_warnin
g=&create_roa=&create_appendix=&bates_format=&dkt=
&got_receipt=1
3

See, e.g., https://www.osceolaclerk.com/Content/
UploadedContent/ Examination/
OC_Forensic_Examination.pdf
4

The MERS® System refers to the Notes and Mortgages
or Deeds of Trust registered in its private database as
“loans” although what is actually being recorded are
claims to the Note which represents the alleged
indebtedness.
5

8
The 2016 Opinion rejected the Second Allonge,
discussed above. Moreover, the Qualified Written
Requests6 to CitiMortgage and PennyMac produced
many documents, but never produced the second
allonge. In the bankruptcy court proceedings
referenced above, standing was contested.
Respondent PNMAC did not produce the Second
Allonge at the first hearing nor did they produce it at
the second hearing. Respondents still took another
month to file the disputed Second Allonge.
(3CT545-546).
The Trustee’s Sale. (RBO 2-3; Pet. 9-10).
Petitioner was not notified of the date of the
Trustee’s Sale. The Trustee’s Sale had been noticed
for May 16, 2013. The bankruptcy court lifted the
automatic stay in the related bankruptcy case on
April 15, 2013. (Pet. 10). On April 16, 2013 the sale
was held without notice to Petitioner while it was
still advertised for May 16th.
Notice of Default was recorded before the Trustee
was appointed. (RBO 3; Pet. 9-10)
The Assignment of Deed of Trust and the
Trustee’s Notice of Default were recorded on January
18, 2012. (Resp. RJN Ex.B; 4CT712). Five months
later, on July 10, 20127, the Substitution of Trustee
was recorded along with the Notice of Trustee’s Sale.
(4CT714).
The assignment of deed of trust was notarized
fraudulently. (RBO 3; Pet. 9-10).
12 U.S.C. § 2605(e) and C.F.R. Title 12, Ch. X, Pt.
1024.35 (RESPA)
6

7

4CT793-809; 5CT1127-1136; 6CT1244.

9
The notary and the executor had the same
pattern of practice described in Szymoniak’s Second
Amended Complaint. They churned out documents
for multiple entities not related to Respondents while
employed by PennyMac. (TAC Ex.31; 2CT268-310).
After her arrest, the notary failed to surrender her
notarial journals to the State, as required, precluding
verification of the instruments relevant to this case
executed through that notary. This is spoliation of
evidence which gives rise to, at least, a negative
inference against her employer. PennyMac, as the
employer of the fraudulent notary is liable for the
frauds committed by her as alleged in the TAC.
Yvanova v. New Century Mortgage Corp. (RBO 3;
Pet. 10-13).
Petitioner’s summary of the holding does not
contradict the Respondents’ direct quote of Yvanova.
The summary is the holding’s application to the facts
of this case and is not misstated.
TAC exhibits. (RBO 3-4; Pet. 2).
The exhibits support the TAC’s allegations. They
include certified copies of Respondents’ instruments,
some showing record out of proper procedural
sequence; letters from PennyMac with varying dates
of acquisition of the Note, an admission against
interest that PNMAC did not hold the Note on the
date the foreclosure proceedings commenced, and a
beginning balance never explained; CitiMortgage
documents evidencing the debt was not in default
when PennyMac began to service the debt; and the
Second Allonge produced at a convenient time, but
which was insufficient to be judicially noticed.

10
Was the Note transferred to an entity other than
PNMAC? (RBO 4; Pet. 12-13).
Respondents state that Petitioner’s assertion of
conflicting claims to the Note is “wrong” but do not
elaborate on their conclusory statement.
The Note had multiple claimants as shown on the
MERS® System website, and letters from various
lenders to Petitioner stating that entities other than
PNMAC held the Note. (Pet. 18; TAC Ex.47-49;
3CT548-552).
Respondents’ Rule 42.2 Assertion of Frivolous
Petition. (RBO 10-11)
Petitioner was denied due process by the state
courts’ violation of the law of the case doctrine.
Petitioner presented the doctrine’s violation at every
level of the state courts. She did not use a “particular
form of words,” but her intentions were plain. See
Street, supra. Due process requires the application of
the doctrine of the law of the case.
Counsel for Respondents have a history of seeking
sanctions against opposing parties and their counsel.
For example, in the proceedings below, twice they
sought sanctions against Petitioner and once against
her counsel. Thrice they tried. Thrice they failed.
During one hearing, Petitioner introduced an order
from an unrelated case in which Respondents and
the same counsel sought sanctions against that
plaintiff and his counsel. That court, instead,

11
sanctioned Respondents’ counsel’s firm $4,875.8
Earlier, the same firm for Respondents was
sanctioned $100,000 for filing and pursuing a
frivolous lawsuit. (Segan LLC v. Zynga Inc. (N.D.Cal.
2015) 131 F. Supp. 3d 956, 964-65.) (“[E]ven though
the Blank Rome attorneys devised and put forth
objectively baseless claim construction and
infringement positions, . . . communications among
[their] attorneys are more suggestive of lawyers who
come to believe in a ridiculous argument . . .”).
Having violated the law of the case doctrine in
order to obtain the benefit of a wrongful foreclosure,
Respondents now ask this Court to sanction
Petitioner and her counsel for seeking vindication of
Petitioner’s due process rights which have been
violated.

REASONS TO GRANT THE PETITION
Procedural due process is constitutionally
guaranteed by the Fourteenth Amendment to the
Constitution of the United States. Petitioner was
deprived of her property right in her cause of action
for wrongful foreclosure. When the trial court
violated the law of the case doctrine, Petitioner had a
reasonable expectation the Court of Appeal would
rectify the trial court’s plain error. She also had a
reasonable expectation that the California Supreme
Court would accept review to assure that the law of

Art Walker vs. PennyMacLoan Services, LLC et al., No.
CGC-13-532110; Super. Court, San Francisco County;
Order entered May 17, 2017; Instrument No.
001C05869137. This case is not cited as precedent but to
demonstrate Respondents’ counsel’s propensity to file
frivolous motions for sanctions.
8

12
the case was followed and not allow Petitioner’s due
process rights to be violated.
The present case is one of many where
homeowners have been dispossessed by the use of
fabricated documents and modification plans used to
falsely create defaults. The violations of due process
rights have been upheld by a judiciary that does not
agree on the source of MERS, Inc.’s authority.
The long-standing national controversy over the
self-assignment of property rights through the
unregulated, private MERS® System database must
ultimately be addressed. When an employee of an
agent of a foreclosure claimant doubles as a “MERS
Signing Officer” and executes an instrument for the
benefit of his employer’s principal, a fundamental
principle of agency law is violated. An assignment
requires an assignee and an assignor. Selfassignment from agent to principal is a legal
impossibility.
It is not subject to reasonable dispute that the
MERS® System has no beneficial interest in any
debt. Due process is violated by the creation of
fabricated documents through the use of the MERS®
System to self-assign interests in real estate by use
of fabricated evidence9 created in the name of MERS,
Inc.

CONCLUSION
Petitioner urges the Court to grant her Petition
for Writ of Certiorari to give Petitioner the
Cf. McDonough v. Smith, 139 S. Ct. 2149, 204 L. Ed. 2d
506 (2019) which recognizes the due process implications
of the use of government-created fabricated evidence in
criminal proceedings.
9

EXHIBIT A

EXHIBIT A

Warning
As of: October 8, 2020 6:41 PM Z

Figueroa v. U.S. Bank N.A.
Court of Appeal of California, Second Appellate District, Division Five
April 3, 2019, Opinion Filed
B287457
Reporter
2019 Cal. App. Unpub. LEXIS 2317 *; 2019 WL 1467953

FIGUEROA TOWER I, LP et al., Plaintiffs and Appellants, v.
U.S. BANK NATIONAL ASSOCIATION, as Trustee, etc.,
Defendant and Respondent.

Notice: NOT TO BE PUBLISHED IN OFFICIAL
REPORTS. CALIFORNIA RULES OF COURT, RULE
8.1115(a), PROHIBITS COURTS AND PARTIES FROM
CITING OR RELYING ON OPINIONS NOT CERTIFIED
FOR PUBLICATION OR ORDERED PUBLISHED,
EXCEPT AS SPECIFIED BY RULE 8.1115(b). THIS
OPINION HAS NOT BEEN CERTIFIED FOR
PUBLICATION OR ORDERED PUBLISHED FOR THE
PURPOSES OF RULE 8.1115.

Core Terms
prepayment, default, Deed, intangibles, Notice, collateral,
foreclosure, inclusion, bid, bidders, cure, acceleration,
reinstate, pledged, indebtedness, calculated, prejudiced,
chilled, enrichment, demurrer, unjust, advertisement, lawsuit,
bifurcated-issues, bargain[ed, deposition, mortgage

Counsel: Krane & Smith, Marc Smith, Ralph C. Loeb and
Daniel L. Reback; Greines, Martin, Stein & Richland, Marc J.
Poster, for Plaintiffs and Appellants.
Jeffer Mangels Butler & Mitchell, Robert B. Kaplan and Neil
C. Erickson, for Defendant and Respondent.

Subsequent History: Review denied by, Request denied by
Figueroa v. United States Bank Nat'l Ass'n, 2019 Cal. LEXIS
4762 (Cal., June 26, 2019)

Judges: BAKER, J.; RUBIN, P. J., KIM, J. concurred.

Opinion by: BAKER, J.
Prior History: [*1] APPEAL from a judgment of the
Superior Court of Los Angeles County, No. BC506014,
Elizabeth Allen White, Judge.

Opinion
Figueroa Tower I, LP v. United States Bank Nat'l Ass'n, 2015
Cal. App. Unpub. LEXIS 4264 (Cal. App. 2d Dist., June 16,
2015)

Disposition: Affirmed.

This is a commercial foreclosure case involving a promissory
note secured by real and personal property. Plaintiffs and
appellants Figueroa Tower I, LP, Figueroa Tower II, LP, and
Figueroa Tower III, LP (collectively, Figueroa Tower or
plaintiffs) obtained a loan and executed a deed of trust and
security agreement. Defendant and respondent U.S. Bank
National Association (U.S. Bank) became the holder of the
promissory note and security instruments and later foreclosed

Page 2 of 13
2019 Cal. App. Unpub. LEXIS 2317, *1
on the real and personal property pledged as collateral.
Plaintiffs sued U.S. Bank and Witkin & Eisinger, LLC, the
foreclosure trustee, (collectively, defendants) alleging
wrongful foreclosure and other causes of action against both
defendants, and breach of contract solely against U.S. Bank.
The trial court granted [*2] summary adjudication for
defendants on all but the breach of contract cause of action,
and on that claim, it held two bifurcated-issue bench trials and
found in U.S. Bank's favor. We are asked to decide whether
the trial court correctly concluded plaintiffs could not prove
the heart of their foreclosure-based claims—that they were
prejudiced by the inclusion of a $14 million prepayment fee in
the foreclosure notice of sale—and had no standing to pursue
their breach of contract claim.
I. BACKGROUND
This case has a long and fairly convoluted procedural history.
We summarize below only those facts which are pertinent to
resolving this appeal, drawing in places on this court's opinion
in a prior appeal involving these same parties. (Figueroa
Tower I, LP v. United States Bank Nat. Assn. (June 16, 2015,
B255844 [nonpub. opn.] (Figueroa Tower I).)

A. Origin of the Loan and Relevant Provisions
In 2006, plaintiffs executed a promissory note (Note) in favor
of German American Capital Corporation in the principal sum
of $62 million.1 The Note's maturity date was August 1, 2016.
To secure repayment of this debt, plaintiffs executed a "Deed
of Trust, Assignment of Leases and Rents, Security
Agreement [*3] and Fixture Filing" (Deed of Trust) with
respect to the real property commonly known as 654 and 660
South Figueroa Street, Los Angeles, California (Property) and
with respect to certain personal property. Ultimately, through
various assignments and a merger with another bank, U.S.
Bank became the holder of the various loan documents.

1. Provisions relating to the prepayment fee
Section 3 of the Note is the provision that concerns the
prepayment fee at issue in this appeal. Section 3(a) prohibits
prepayment of the Note in whole or in part except in limited
circumstances not at issue here. Section 3(b) provides, in
relevant part, that "if for any reason the indebtedness
evidenced by this Note ('Debt') is prepaid at any time . . .
including without limitation any prepayment which occurs
after such indebtedness shall have been declared due and
payable by [the lender] pursuant to the terms of this Note or

the provisions of any other Loan Document due to a default
by [Figueroa Tower], then there shall also then be
immediately due and payable, a prepayment fee equal to the
premium described in Section 12.4(c) of the Security
Instrument, without regard to any prepayment prohibition."
Section 3(b) further states "[Figueroa Tower] hereby
expressly . . [*4] . agrees that if a prepayment of any or all of
this Note is made, following any acceleration of the maturity
of this Note by the holder hereof on account of any transfer or
disposition as prohibited or restricted by the Security
Instrument, then [Figueroa Tower] shall be obligated to pay,
concurrently therewith, as a prepayment fee, the applicable
sum specified in the Security Instrument."2
The section of the Deed of Trust cross-referenced in the
Note's Section 3(b), i.e., Section 12.4(c), defines the
"prepayment fee" as "an amount equal to the greater of (A)
five percent (5%) of the then outstanding principal balance of
the Note on the date of acceleration (the 'Tender Date'), and
(B) the Yield Maintenance Amount . . . ." Section 12.4(d) of
the Deed of Trust sets forth a formula by which the "Yield
Maintenance Amount" is calculated; in broad strokes, it
requires calculation of the present value of the remaining
scheduled payments of principal and interest due from the
"Tender Date" (defined as "the date of acceleration") through
the Note's maturity date.
Deed of Trust Section 15.1, which addresses the "Remedies
Available," provides that if an "Event of Default under this
Deed of Trust" occurs, the Beneficiary is entitled to exercise
the [*5] right to "[a]ccelerate the maturity date of the Note
and declare any or all of the Debt to be immediately due and
payable . . . ." Further, "[u]pon any such acceleration,
payment of such accelerated amount shall constitute a
prepayment of the principal balance of the Note and any
applicable prepayment fee provided for in the Note shall then
be immediately due and payable."
Deed of Trust Section 16.14 provides in pertinent part that
where there is an inconsistency between the Deed of Trust
and Note, the terms of the Note control.

2. Additional security provisions, including "General
Intangibles"
The Agreements section of the Deed of Trust provides that "in
consideration of the Debt . . . [Figueroa Tower] hereby
irrevocably mortgages, grants, bargains, sells, conveys,
transfers, pledges, acts over and assigns to Beneficiary and

2A
1 The

2006 loan was a refinance of a loan plaintiffs obtained in 2004.

Figueroa Tower representative initialed the Note beneath Section
3 to indicate assent to its terms.

Page 3 of 13
2019 Cal. App. Unpub. LEXIS 2317, *5
Trustee, WITH POWER OF SALE, and creates a security
interest in, all of . . . the following described property,
whether now owned or hereafter acquired by [Figueroa
Tower]," including "[a]ll present and future funds, accounts,
instruments, accounts receivable, documents, claims, general
intangibles (including, without limitation, trademarks, trade
names, service marks and symbols [*6] now or hereafter used
in connection with any part of the Premises or the
Improvements, all names by which the Premises or the
Improvements may be operated or known, all rights to carry
on business under such names, and all rights, interest and
privileges which [Figueroa Tower] has or may have as
developer or declarant under any covenants, restrictions or
declarations now or hereafter relating to the Premises or the
Improvements) (collectively, the 'General Intangibles') . . . ."
Section 13.1 of the Deed of Trust states that the "Deed of
Trust is also intended to encumber and create a security
interest in, and [Figueroa Tower] hereby grants to Beneficiary
a security interest in, . . . all . . . general intangibles and other
personal property included within the Trust Property . . . (said
property is hereinafter referred to collectively as the
'Collateral'), whether or not the same shall be attached to the
Premises or the Improvements in any manner." Section 13.2
provides "[t]his Deed of Trust constitutes a security
agreement between Grantor and Beneficiary with respect to
the Collateral in which Beneficiary is granted a security
interest hereunder, and, cumulative of all other rights and
remedies of Beneficiary [*7] hereunder, Beneficiary shall
have all of the rights and remedies of a secured party under
any applicable Uniform Commercial Code."

B. Bankruptcy Proceedings and Foreclosure
On June 24, 2011, defendants' counsel sent plaintiffs a letter
contending plaintiffs had defaulted under the Loan
Documents by failing to make required payments. The letter
informed plaintiffs that U.S. Bank was accelerating the debt
owed under the Note and declaring it immediately due and
payable.
After receiving this acceleration letter, plaintiffs filed
voluntary petitions under Chapter 11 of the United States
Bankruptcy Code in the United States Bankruptcy Court for
the Central District of California. U.S. Bank obtained an order
modifying the automatic stay in the bankruptcy cases and then
recorded a Notice of Default and Election to Sell Under Deed
of Trust. The Notice of Default stated the amount due and
necessary to reinstate the loan as of May 8, 2012, was
$6,547,954.46.
Over three months later, U.S. Bank recorded a Notice of
Trustee's Sale Under Deed of Trust. The Notice of Sale stated

plaintiffs owed U.S. Bank $81,931,461.72, including default
interest, late charges, and most significantly for our
purposes, [*8] a prepayment fee of $14,007,811.30.
The trustee's sale went forward on January 24, 2013, and U.S.
Bank was the sole bidder—purchasing the Property pursuant
to a credit bid of $67 million. The Trustee's Deed on Sale
stated the amount of the unpaid debt on the day of the sale
was $85,529,080.26. The Chapter 11 bankruptcy case was
dismissed in May 2013.
Later in November 2013, U.S. Bank served plaintiffs with a
notification of disposition of collateral. The notice stated the
bank would auction "[a]ll interests of any Debtor in any of the
intangible and tangible personal property described on Exhibit
B." Among such property listed on Exhibit B were "[a]ll
funds, accounts, instruments, accounts receivable, documents,
claims, and general intangibles (including (i) all payment
intangibles; (ii) all trademarks, trade names, service marks,
and symbols now or heretofore used in connection with any
part of the Real Property; (iii) all names under or by which the
Real Property may be or have been operated or known; (iv)
all rights to carry on business under any of those names; and
(v) all rights, interests, and privileges that any Debtor has or
may have had as a developer or declarant under any [*9]
covenants, restrictions, or declarations now or heretofore
relating to the Real Property)." Exhibit B also contained a
footnote which stated, in pertinent part, that "[a]ll
uncapitalized terms used in this Exhibit B not defined
elsewhere in this Notification have the meanings given those
terms in Division 9 of the Uniform Commercial Code of the
State of California."
The noticed collateral sale went forward in December 2013.
U.S. Bank purchased the property described in the notice
through a credit bid, this time in the amount of $10,000. No
other bidders appeared at the sale.
In May 2014, U.S. Bank sold the Property to a third party for
$80 million.

C. This Action

1. Initial proceedings
Plaintiffs filed their original complaint against defendants in
April 2013, alleging seven causes of action including breach
of contract, wrongful foreclosure, declaratory relief,
conversion, unjust enrichment, accounting, and unfair
competition. They filed their first amended complaint alleging
the same causes of action later that same year. Defendants

Page 4 of 13
2019 Cal. App. Unpub. LEXIS 2317, *9
answered the first amended complaint and asserted
affirmative defenses, including a defense that plaintiffs lacked
standing to prosecute the causes of action [*10] in their
lawsuit.
The trial court sustained defendants' demurrer to the wrongful
foreclosure and declaratory relief causes of action in the first
amended complaint "'without leave to amend unless
[plaintiffs] deposit[ ] 5 million dollars into an escrow account
by the close of business on December 10, 2013.'" The trial
court also granted a separate motion for summary judgment
filed by defendants, ruling plaintiffs had not demonstrated
there were issues of fact requiring a trial on whether
defendants incorrectly calculated and imposed the $14 million
prepayment fee. Defendants appealed the demurrer and
summary judgment rulings.

Following this court's holding in Yashouafar, we decided the
appeal of the trial court's demurrer and summary judgment
rulings in Figueroa Tower I and reversed both the trial court's
summary judgment and demurrer rulings. As to the
demurrer, [*12] we concluded plaintiffs had sufficiently
alleged an ability to tender the amount defendants contended
was due under the Note and Deed of Trust. More significant
for our purposes, we concluded our holding in Yashouafar
compelled reversal of the trial court's summary adjudication
of plaintiffs' breach of contract, wrongful foreclosure, and
declaratory relief causes of action because "the trial court
erred in ruling that the prepayment fee was to be calculated as
of [U.S. Bank's] June 24, 2011, acceleration of the
indebtedness and not the actual prepayment of the
indebtedness . . . ." We remanded the matter to the trial court
"for further proceedings."

2. Yashouafar and Figueroa Tower I

D. Proceedings After Remand

Before this court decided the appeal of those rulings, it
decided U.S. Bank National Assn. v. Yashouafar (2014) 232
Cal.App.4th 639, 181 Cal. Rptr. 3d 615 (Yashouafar), a
related case involving a dispute over the same Note and Deed
of Trust at issue here. This court's opinion in Yashouafar,
which involved an action brought by U.S. Bank against the
guarantors of the Note, addressed the calculation of the
prepayment fee under the Note and Deed of Trust. (Id. at p.
641.)
The Yashouafar court examined section 3(b) of the Note and
relevant provisions of the Deed of Trust, including section
12.4(c), and concluded section 3(b) of the Note and section
12.4(c) of the Deed of Trust conflicted. [*11] (Yashouafar,
supra, 232 Cal.App.4th at p. 647 ["Section 3(b) of the Note,
which states that a prepayment fee is due after the Note's
indebtedness has been prepaid, is inconsistent with section
12.4(c) of the Deed of Trust . . . , which states that the
prepayment fee is due if [U.S. Bank] declares the Note's
indebtedness due and payable"].) Because section 16.14 of the
Deed of Trust states the Note controls in the event of an
inconsistency between it and the Deed of Trust, the
Yashouafar court concluded "no prepayment penalty was due
until [the guarantors] prepaid the Note's indebtedness and any
prepayment fee should not be calculated based on the June 24,
2011, letter from plaintiff's counsel accelerating payment of
the Note's indebtedness." (Ibid.) Illuminating the sense in
which it used the term "calculated," the Yashouafar court
explained "that under the clear and explicit terms of the Note
and Deed of Trust at issue in this case, no prepayment fee was
due until [the guarantors] actually prepaid the Note's
indebtedness." (Id. at p. 648.)

1. The third amended complaint
Plaintiffs filed a third amended complaint (the operative
complaint) in August 2016. The operative complaint asserted
four causes of action: (1) breach of written contract; (2)
wrongful foreclosure; (3) unjust enrichment; and (4) unfair
business practices under Business and Professions Code
section 17200. It alleged, among other things, that U.S. Bank
had "demanded payment of, and added into the amounts
demanded before and after the declaration of default and
foreclosure, illegal penalties under the guise of a 'prepayment
fee,' [*13] 'late charges,' and 'default interest' . . . ."
The breach of contract cause of action alleged U.S. Bank
breached the loan documents in various ways, including by
declaring defaults without basis, demanding payment of late
fees and default interest, refusing to allow withdrawal of
funds from reserve accounts after receiving such payments
under protest, demanding illegal and unreasonable penalties
and fees, and recording a Notice of Sale that featured a loan
balance overstated by certain amounts, including the
assertedly improper $14 million prepayment fee.
The wrongful foreclosure cause of action alleged defendants
had recorded a notice of sale that "included an illegal,
fraudulent willfully oppressive prepayment penalty, in the
sum of $14,007,811.30, even though no actual payment had
occurred[,]" as well as "inflated estimated costs, expenses and
advances, illegal interest, illegal default interest penalties and
late payment penalties and improper legal fees . . . and more
than $840,000 in principal that had already been paid

Page 5 of 13
2019 Cal. App. Unpub. LEXIS 2317, *13
according to [U.S. Bank's] own records." It further alleged the
"overstatement prejudiced Plaintiffs in that it prevented
Plaintiffs from attempting to cure the [*14] default within 5
days of the sale, which Plaintiffs could have accomplished,
chilled bidders from attending the Trustee's Sale and from
overbidding [U.S. Bank's] credit bid thereby offering fair and
reasonable amounts to maximize the value obtained for the
Property, and improperly allowing [U.S. Bank] to credit bid in
excess of the actual amount of the debt."3

2. Defendants' motion for summary adjudication
Defendants moved for summary judgment or summary
adjudication of the claims in the operative complaint.
Defendants argued they were entitled to summary
adjudication of the breach of contract cause of action because
(1) the prepayment fee was not an illegal penalty; (2) the
notice of default neither included nor was required to include
the prepayment fee; (3) the notice of trustee's sale properly
included the prepayment fee; and (4) in any event, there was
no substantial evidence plaintiffs suffered damages as a result
of defendants' inclusion of the prepayment fee in the Notice
of Sale. Defendants argued they were entitled to summary
adjudication of the wrongful foreclosure cause of action for
the last of these reasons, i.e., because plaintiffs could not
demonstrate they had been prejudiced [*15] by the inclusion
of the prepayment fee, late charges, and default interest in the
Notice of Sale. And defendants argued summary adjudication
of the remaining claims for unjust enrichment and violation of
Business and Professions Code section 17200 was likewise
warranted—for the former because an unjust enrichment
claim does not lie where express contracts define the parties'
rights, and for the latter because an unfair competition claim
is derivative of other violations of law and all the other causes
of action were meritless.
The trial court denied the motion for summary judgment but
granted summary adjudication of the wrongful foreclosure,
unjust enrichment, and Business and Professions Code section
17200 causes of action in defendants' favor (summary
adjudication of the breach of contract claim was denied). In
summarily adjudicating the wrongful foreclosure cause of
action, the trial court found that even if the $14 million-plus
prepayment fee included in the Notice of Sale was
"completely erroneous," defendants' summary adjudication
evidence demonstrated plaintiffs suffered no prejudice from

the inclusion of the fee. Specifically, the court found the
amount of indebtedness stated in the Notice of Sale was not
the amount needed to cure the asserted default (but
rather [*16] to redeem the property before the trustee's sale);
plaintiffs' operative complaint alleged only that they were
wrongfully deprived of the opportunity to cure the asserted
default (not that they would have redeemed the Property); and
thus, plaintiffs had not even alleged prejudice from inclusion
of the prepayment fee in the Notice of Sale.4 The trial court
rejected plaintiffs' argument that inclusion of the prepayment
fee in the indebtedness amount listed in the Notice of Sale
prejudiced plaintiffs by scaring off potential bidders from
participating in the trustee's sale (which, plaintiffs believed,
could have resulted in a higher sale price). The court found
plaintiffs had cited no evidence that would contradict an
admission by plaintiffs' managing member that he was
unaware of any specific facts to support the claim that
inclusion of the prepayment fee chilled bidding at the trustee's
sale.
As for the remaining causes of action alleged in the operative
complaint, the court summarily adjudicated the unjust
enrichment cause of action in defendant's favor, citing case
law holding there is no cause of action for unjust enrichment
in California because it is a general principle
underlying [*17] various legal doctrines rather than being a
remedy itself. The court also summarily adjudicated the
Business and Professions Code section 17200 claim in
defendants' favor because it was predicated on the same
wrongful foreclosure theory the court had already found
deficient.

3. The bifurcated trial on the prepayment fee
With the breach of contract claim still viable following the
trial court's summary judgment ruling, defendants moved to
bifurcate and try first the operative complaint's allegations
that the prepayment fee, default interest rate, and late charges
imposed by defendants were unenforceable penalty
provisions. The trial court agreed. U.S. Bank also filed a
motion in limine seeking to prevent plaintiffs from presenting
an expert on the trade usage of the term "prepayment." The
trial court granted this motion as well, reasoning its task was
to interpret the Note and the Note did not appear ambiguous.

4 The

3 The

facts alleged in connection with the unjust enrichment and
Business and Professions Code section 17200 causes of action were
no broader than the facts alleged to support the breach of contract
and wrongful foreclosure claims.

trial court further concluded plaintiffs had put forward no
evidence that they would have cured the asserted default had it not
been for the inclusion of other assertedly improper penalties and
interest charges in the Notice of Default amount. Rather, the court
found, "[p]laintiffs' evidence is that they did have access to sufficient
funds to pay the $6+ million set forth in the Notice of Default."

Page 6 of 13
2019 Cal. App. Unpub. LEXIS 2317, *17
During the court trial, the parties narrowed the issues by
stipulating the default interest rate and late fee provisions in
the Note were enforceable and the only issue for the court's
decision was whether the prepayment fee was enforceable.
U.S. Bank made a motion for judgment pursuant to Code of
Civil Procedure section 631.8. The trial court granted the
motion [*18] for judgment and later issued a statement of
decision finding the prepayment fee was not an illegal penalty
provision.
In its statement of decision, the trial court rejected plaintiffs'
argument that the prepayment fee applies only in the event
that the borrower makes a voluntary cash prepayment of the
Note and not in case of an involuntary foreclosure because
"the rationale for imposition of the prepayment penalty
applies in either event, foreclosure or early payoff, because
under both scenarios, the Trust has lost the bargained for
income which would be paid over the life of the loan." The
trial court noted Civil Code section 1671 (the statute
governing validity of contractual liquidated damages
provisions) presumes the prepayment fee is valid and places
the burden on plaintiffs to show it was unreasonable under the
circumstances existing at the time the contract was made,
which the court believed plaintiffs had not done.
The trial court also considered the proper calculation of the
prepayment fee. It discussed this court's opinions in
Yashouafar and Figueroa Tower I and noted they "made clear
that the prepayment penalty may not be calculated as of the
issuance of the Notice of Default/Acceleration Letter." [*19]
Looking to section 3(b) of the Note and sections 12.4 and
15.1 of the Deed of Trust, the court concluded "[i]n
reconciling these provisions, it becomes clear that: 1) a
prepayment fee is to be imposed regardless of whether there is
an early payoff or an event of default which is followed by an
early payoff as a result of a bid made at a trustee's sale; and 2)
the prepayment fee, while not to be included with the Notice
of Default/Acceleration Letter, is to be retroactively
calculated to the date of default using the formula set forth in
Sections 12.4(c) and 12.4(d) of the Deed of Trust, namely
June 24, 2011 and included in the Notice of Trustee's Sale so
that when the bids are made, the beneficiary is in a position to
obtain the bargained[-]for consideration."

4. The court holds another separate trial on plaintiffs'
standing to pursue the breach of contract cause of action
Following the first bifurcated-issue bench trial, defendants
filed a motion to sever and present nine additional issues for
the court's consideration before the breach of contract claim
was set for a jury trial. Among these was the issue of whether
"[p]laintiffs have standing to continue the prosecution of their

Breach of Written Contract Cause of Action against the [*20]
Trust as a result of the Commercial Code Sale [of general
intangibles] conducted by the Trust on December 11, 2013."
The trial court granted the motion as to that issue only.
Prior to this second court trial, the parties agreed to a factual
stipulation. According to its terms, and solely for the purpose
of the severed trial "and without prejudice to, or waiver of,
any of Plaintiffs' rights . . . regarding any appeal filed in this
case," the parties stipulated the unpaid balance of the Note
due and owing to the Trust after the credit bid of $67 million
was at least $35,000, and that plaintiffs' failure to pay the
prepayment fee and/or the $35,000 was an event of default
under the Note and Deed of Trust.
Two witnesses testified at trial. Nicholas De Lancie, an
attorney representing U.S. Bank, testified regarding the
foreclosure sales. De Lancie explained there were three
foreclosure sales related to the Property, the real property
foreclosure sale in January 2013, the collateral disposition
sale under the Uniform Commercial Code in December 2013,
and another collateral disposition sale. De Lancie prepared
and signed the notification of disposition of collateral for the
December 2013 sale, [*21] which was served on plaintiffs.
He also prepared an advertisement for the sale, which ran in
the Los Angeles Times and stated, among other things, that
"general intangibles" would be included in the sale (the
claims asserted in plaintiffs' lawsuit were not specifically
identified). De Lancie was the successful bidder—and the
only bidder—at the December 2013 collateral sale,
purchasing the general intangibles for a credit bid of $10,000.
Simon Barlava, a member of defendant Figueroa II, LLC, was
the other witness to testify. He understood that the Note was
secured by collateral, that the Property was the collateral, and
that intangibles related to the real property were included in
the security. He testified he did not understand, however, that
when he received notice of the December 2013 collateral sale
that the causes of action asserted in the lawsuit pending
between plaintiffs and defendants were among the general
intangibles to be sold. Barlava agreed he took no action in
response to the notice but he asserted he would have taken
steps to prevent the collateral sale from going forward had he
known the claims asserted in this action were among the
general intangibles being sold.
The [*22] trial court took the matter under submission and
later issued a statement of decision concluding plaintiffs had
no standing to pursue the breach of contract cause of action in
light of the general intangibles collateral sale. The court relied
on the Commercial Code's definition of "general intangibles,"
which includes "things in action," i.e., rights to recover
money or other personal property by way of a judicial

Page 7 of 13
2019 Cal. App. Unpub. LEXIS 2317, *22
proceeding. The court further reasoned that a security interest
may exist in collateral acquired by a borrower after
undertaking a loan obligation and that a security interest
arising by virtue of an after-acquired claim is no less valid
than one to which the debtor has rights at the time value is
first given. And the court concluded the parties' stipulation
established two "Events of Default" had occurred under the
Note and Deed of Trust, which authorized defendants to
proceed with the Commercial Code sale of general
intangibles.
The trial court expressly rejected plaintiffs' reasons for
arguing the contrary. In response to plaintiffs' argument that
inclusion of the lawsuit would run afoul of Civil Code section
1668,5 the trial court noted the statute does not apply in the
context of a commercial [*23] transaction but only to cases
that involve "'the public interest.'" In response to plaintiffs'
argument that U.S. Bank should be barred from asserting its
lack of standing defense because it was not asserted in prior
demurrers or motions for summary judgment, the court found
U.S. Bank had preserved its right to assert the defense by
asserting it as an affirmative defense in its answer to the
operative complaint. And in response to plaintiffs' argument
that the Commercial Code barred U.S. Bank from taking the
general intangibles if it had acted in bad faith, the trial court
concluded plaintiffs had provided no evidence to establish
U.S. Bank acted in bad faith and U.S. Bank had satisfied its
burden of proof that it advertised and conducted the sale in a
commercially reasonable manner.
The trial court subsequently entered judgment for defendants.
It also granted U.S. Bank's motion for attorneys' fees as
authorized by provisions in the Deed of Trust.
II. DISCUSSION
On appeal, plaintiffs challenge (1) the trial court's summary
adjudication order, including the ruling that plaintiffs were
not prejudiced by inclusion of the $14 million prepayment fee
in the amount listed on the Notice of Sale; [*24] (2) the trial
court's conclusion, after the first bifurcated-issues trial
concerning the breach of contract claim, that the prepayment
fee was not an impermissible contractual penalty; and (3) the
trial court's conclusion, after the second bifurcated-issues
trial, that plaintiffs had no standing to bring the breach of
contract claim. The conclusions we reach as to the first and

5 Civil

Code section 1668 provides: "All contracts which have for
their object, directly or indirectly, to exempt anyone from
responsibility for his own fraud, or willful injury to the person or
property of another, or violation of law, whether willful or negligent,
are against the policy of the law."

third of these issues obviate any need to resolve the second.6
That is to say, we hold the evidence is undisputed on the
summary judgment record that plaintiffs were not prejudiced
by inclusion of the challenged prepayment fee in the Notice of
Sale, and thus, the trial court correctly adjudicated this issue
summarily in defendants' favor. We further hold the trial court
correctly
found
plaintiffs—sophisticated
commercial
parties—lack standing to prosecute their breach of contract
cause of action because, in the Deed of Trust (which
functioned as a trust deed and security agreement), they
pledged their current and future general intangibles as
security. Those general intangibles, purchased by U.S. Bank
at the December 2013 collateral sale, included the rights to
the breach of contract claim. These twin holdings [*25] doom
the entirety of plaintiffs' operative complaint as framed for
our decision and we shall therefore affirm the judgment.

A. The Trial Court's Summary Adjudication Order Was
Proper
Plaintiffs argue the trial court erred in granting defendants'
motion for summary adjudication. Plaintiffs claim there was
evidence they were injured by inclusion of the prepayment fee
in the Notice of Sale because (1) plaintiffs could have cured
the default and avoided the foreclosure but for the inclusion of
the prepayment fee and (2) the inclusion of the prepayment
fee in the notice chilled other potential bidders from
participating in the foreclosure sale. Even assuming the $14
million prepayment fee was incorrectly included in the
amount of indebtedness stated in the Notice of Sale, plaintiffs
failed to present evidence that would permit a conclusion they
were prejudiced by the inclusion and the trial court properly
granted defendants' motion for summary adjudication of the
claim.

1. Standard of review and elements
"In reviewing an order granting summary adjudication, 'we
apply the same standard of review applicable on appeal from
a grant of summary judgment. [Citation.]'" (Rehmani v.
Superior Court (2012) 204 Cal.App.4th 945, 950, 139 Cal.
Rptr. 3d 464.) Where a "'case comes before [*26] us after the
trial court granted a motion for summary [adjudication], we
take the facts from the record that was before the trial court
when it ruled on that motion. [Citation.] "'We review the trial
court's decision de novo, considering all the evidence set forth
in the moving and opposing papers except that to which

6 We

accordingly deny defendants' request for judicial notice, which
seeks notice of documents relevant only to that second issue.

Page 8 of 13
2019 Cal. App. Unpub. LEXIS 2317, *26
objections were made and sustained.'" [Citation.] We liberally
construe the evidence in support of the party opposing
summary [adjudication] and resolve doubts concerning the
evidence in favor of that party. [Citation.]' [Citation.]"
(Wilson v. 21st Century Ins. Co. (2007) 42 Cal.4th 713, 716717, 68 Cal. Rptr. 3d 746, 171 P.3d 1082.)

2. Plaintiffs adduced no evidence on which a jury could find
their ability to cure the noticed default was prejudiced
"During the foreclosure process, the debtor/trustor is given
several opportunities to cure the default and avoid the loss of
the property. First, the trustor is entitled to a period of
reinstatement to make the back payments and reinstate the
terms of the loan. [Citation.] This period of reinstatement
continues until five business days prior to the date of the sale,
including any postponement. [Citation.] In addition to the
right of reinstatement, the trustor also possesses an equity of
redemption, which permits [*27] the trustor to pay all sums
due prior to the sale of the property at foreclosure and thus
avoid the sale. [Citations.]" (Moeller v. Lien (1994) 25
Cal.App.4th 822, 830-831, 30 Cal. Rptr. 2d 777.)
In order to reinstate the loan, plaintiffs would have needed to
tender "the entire amount due, at the time payment is
tendered, with respect to (A) all amounts of principal, interest,
taxes, assessments, insurance premiums, or advances actually
known by the beneficiary to be, and that are, in default and
shown in the notice of default, under the terms of the deed of
trust or mortgage and the obligation secured thereby, (B) all
amounts in default on recurring obligations not shown in the
notice of default, and (C) all reasonable costs and expenses . .
. other than the portion of principal as would not then be due
had no default occurred." (Civ. Code, § 2924c, subd. (a)(1),
italics added.) Such tender would have "cure[d] the default
theretofore existing, and thereupon, all proceedings
theretofore had or instituted shall be dismissed or
discontinued and the obligation and deed of trust or mortgage
shall be reinstated and shall be and remain in force and effect,
the same as if the acceleration had not occurred." (Civ. Code,
§ 2924c, subd. (a)(1).)
Plaintiffs did not present any evidence demonstrating their
ability to cure the default [*28] was affected by the inclusion
of the $14 million prepayment fee in the Notice of Sale. The
Notice of Default stated the amount due to reinstate the loan
was $6,547,954 as of May 2012, and it was the Notice of
Default, not the Notice of Sale, that controlled the amount
plaintiffs would have needed to tender in order to reinstate the
loan and cure the default. (Civ. Code, § 2924c, subd. (a)(1).)
Because the $14 million prepayment fee was not included in
the amount in arrears stated in the Notice of Default,

plaintiffs' ability to cure that default and reinstate the loan
could not have been prejudiced.
In fact, plaintiffs' own summary judgment evidence, namely
Barlava's declaration stating he "had the financial access to
utilize, at a minimum, the sum of $10 million to advance to
Plaintiffs to pay the Trust to cure the actual amounts due
under the Notice of Default" during the relevant time period
indicates plaintiffs had access to sufficient funds to cure their
default. Defendants produced evidence that plaintiffs did not
attempt to use any such funds to cure the default, and
plaintiffs did not present any evidence that would require
resolution of the issue by a jury.7
Plaintiffs protest, however, that U.S. Bank prevented [*29]
them from curing the default by insisting they had to pay the
prepayment fee during bankruptcy proceedings, and later, as a
condition of halting the foreclosure. The portions of the
record to which they refer, however, only indicate U.S. Bank
asserted it was owed the prepayment fee in the Bankruptcy
proceedings. They do not demonstrate U.S. Bank demanded
the prepayment fee as part of the payment necessary to cure
the default and reinstate the loan. Nor could U.S. Bank have
done so. A debtor exercising his or her statutory right to
reinstatement is "only required to pay the delinquent sums,
including recurring obligations, and is not required to pay
portions of principal that but for the acceleration would not
have been due prior to the date of reinstatement." (5 Miller &
Starr, Cal. Real Est. (4th ed. 2016) Deeds of Trust and
Mortgages, § 13:230; see also Civ. Code, § 2924c, subd.
(a)(1).)

3. Plaintiffs failed to create a triable issue of material fact
that foreclosure auction bidding was chilled to their detriment
Plaintiffs additionally argue they were injured by the
inclusion of the prepayment fee in the notice of trustee's sale
because it chilled bidders from attending the sale and left U.S.
Bank free to prevail with a [*30] $67 million credit bid
(rather than a higher sale amount that might have resulted
from competitive bidding). To create a triable issue of
material fact as to prejudice, however, plaintiffs needed to
provide evidence of "a ready, willing and able buyer who
would have paid the higher price but for the wrongful
conduct. Otherwise, [the] damages alleged would be

7 To

the extent plaintiffs argue the inclusion of the prepayment fee
prevented them from redeeming the entire loan outright, the
argument fails because the record evidence indicates that if Barlava
could have accessed all of the funds potentially at his disposal, he
would have been able to pay around $35 million. That would not
have even satisfied the $61 million in principal due on the loan.

Page 9 of 13
2019 Cal. App. Unpub. LEXIS 2317, *30
speculative." (FPCI RE-HAB 01 v. E & G Investments, Ltd.
(1989) 207 Cal.App.3d 1018, 1023, 255 Cal. Rptr. 157 (FPCI
RE-HAB); see also Park v. First American Title Co. (2011)
201 Cal.App.4th 1418, 1426, 136 Cal. Rptr. 3d 684
[upholding summary judgment where plaintiff failed to show
existence of prospective buyer who was ready, willing, and
able to purchase property at trustee's sale].)8
Plaintiffs presented no evidence indicating there was a ready,
willing, and able bidder who would have bid on the Property
but for the inclusion of the prepayment fee, and defendants
adduced discovery responses and deposition testimony
demonstrating plaintiffs lack such evidence. Specifically,
plaintiffs' responses to certain discovery requests, including
responses to a special interrogatory asking plaintiffs to state
all facts supporting their contention the prepayment fee
chilled bidding at the foreclosure sale, failed to identify any
prospective bidders. Similarly, the deposition testimony of
Massoud Yashouafar, [*31] one of the guarantors on the
loan, revealed Yashouafar did not know of any third parties
who had attended the trustee's sale and did not know of any
specific facts to support plaintiffs' claims that the inclusion of
the prepayment fee chilled bidding. Plaintiffs' own proffered
material facts stated there were no bidders at the foreclosure
sale, and no bidders had registered with the foreclosing
trustee. In short, plaintiffs did not provide evidence of any
other bidders who would have been interested in the Property
but for the Notice of Sale debt amount, much less any who
would have been willing and able to bid a sufficient sum.
Plaintiffs' argument to the contrary relies merely on
speculation. Plaintiffs argue Yashouafar's deposition
testimony that "[o]bviously, when the notice of sale has a
demand amount in there, which is at the time higher than the
market value of the property, people will not line up to write
you a cashier check to pay for a property at full price or above
market price to buy a property at foreclosure sale"
demonstrated potential bidders were chilled. This is not
evidence of a ready, willing, and able bidder who would have
purchased the property but for the prepayment [*32] fee.
Plaintiffs also argue the fact that U.S. Bank later sold the
Property to a third party for $80 million indicates there would

8 Plaintiffs

argue FCPI RE-HAB is distinguishable because "there
never should have been a foreclosure sale in the first place,"
contending that if U.S. Bank had permitted plaintiffs to cure, there
would have been no foreclosure. But plaintiffs have presented no
evidence U.S. Bank rejected tender of the amount necessary to
reinstate the loan or otherwise prevented them from tendering that
amount. Plaintiffs' citation to In re Worcester (9th Cir. 1987) 811
F.2d 1224, 1229, which addresses whether a debtor is prejudiced
when property is inaccurately described in a notice of trustee's sale,
is factually inapposite.

have been other bidders if the sale price announced in the
notice of trustee's sale had been lower. This, too, is
speculative. The trustee's sale was held in January 2013. U.S.
Bank did not sell the Property to a third party until May 2014.
That a third party purchased the property more than a year
after the trustee's sale, and with the ability to negotiate terms
that do not apply in a foreclosure auction, does not indicate
the same third party would have bid at the foreclosure sale in
January 2013 but for the prepayment fee.

B. The Trial Court Correctly Concluded Plaintiffs Lacked
Standing to Pursue Their Breach of Contract Claim
Plaintiffs challenge the procedural juncture at which U.S.
Bank raised the standing argument, argue the breach of
contract cause of action was not a "general intangible"
included in the security agreement, and contend the second
collateral sale is void because it was not commercially
reasonable. We find none of these arguments persuasive and
conclude the trial court did not err in concluding plaintiffs
lack standing to assert the [*33] breach of contract cause of
action.

1. Plaintiffs' preliminary procedural arguments
Plaintiffs argue U.S. Bank forfeited any challenge to their
standing by raising the issue late in the litigation. Plaintiffs
further contend defendant's reliance on their standing
affirmative defense is barred by the law of the case doctrine.
Both contentions lack merit.
Defendants have not forfeited their standing argument. "'"[A]
complaint by a party lacking standing fails to state a cause of
action by the particular named plaintiff, inasmuch as the claim
belongs to somebody else. [Citation.]"'" (Cummings v. Stanley
(2009) 177 Cal.App.4th 493, 501, 99 Cal. Rptr. 3d 284
(Cummings).) A plaintiff's lack of standing to sue on a claim
is a jurisdictional defect that is not waived by a defendant's
failure to raise it by demurrer or answer and can be raised at
any time in a proceeding, including for the first time on
appeal. (Common Cause v. Board of Supervisors (1989) 49
Cal.3d 432, 438, 261 Cal. Rptr. 574, 777 P.2d 610;
Cummings, supra, at p. 501; see generally Weil & Brown,
Cal. Practice Guide: Civil Procedure Before Trial (The Rutter
Group 2018) ¶ 2:78, p. 2-34.) Based on these principles, the
issue of standing could not have been forfeited by U.S. Bank's
purported delay in raising it. Plaintiffs' delay argument is also
factually unpersuasive since U.S. Bank first asserted lack of
standing as an [*34] affirmative defense in its Answer to the
First Amended Complaint in December 2013.
Nor does the law of the case doctrine preclude U.S. Bank

Page 10 of 13
2019 Cal. App. Unpub. LEXIS 2317, *34
from asserting plaintiffs lack standing. "'The law of the case
doctrine states that when, in deciding an appeal, an appellate
court "states in its opinion a principle or rule of law necessary
to the decision, that principle or rule becomes the law of the
case and must be adhered to throughout its subsequent
progress, both in the lower court and upon subsequent
appeal."' [Citation.]" (Quackenbush v. Superior Court (2000)
79 Cal.App.4th 867, 874, 94 Cal. Rptr. 2d 282.) "Generally,
the doctrine of law of the case does not extend to points of
law which might have been but were not presented and
determined in a prior appeal. [Citation.] This general rule,
however, is subject to an important exception. The doctrine is
held applicable to questions not expressly decided but
implicitly decided because they were essential to the decision
on the prior appeal." (Ellison v. Ventura Port District (1978)
80 Cal.App.3d 574, 579, 145 Cal. Rptr. 665.) Although no
party raised the issue of standing in Figueroa Tower I,
plaintiffs argue this court's disposition of that appeal
necessarily decided—implicitly— that plaintiffs do have
standing and plaintiffs contend that silent but implicit
determination is binding law of the case. [*35]
Even assuming our prior opinion made such an implicit
finding, the facts presented to the court at the second
bifurcated-issues bench trial are materially different from
those before this court in the prior appeal. The law of the case
doctrine "only applies when, upon a subsequent trial, the
issues and facts found remain substantially the same, and has
no application where the facts alleged and found are
materially different from those considered on a former
appeal." (Weightman v. Hadley (1956) 138 Cal.App.2d 831,
841, 292 P.2d 909.) Further, it "not only does not apply to
new and additional evidence, it does not apply when
explanation of previous evidence appears in the later trial."
(Ibid.) The law of the case doctrine therefore does not bar
defendants from maintaining plaintiffs had no standing to
prosecute a breach of contract claim following the December
2013 collateral sale, and the cases upon which plaintiffs rely
to argue the contrary are unavailing—none involve a
subsequent trial involving new and additional evidence after
remand. (See, e.g., Nevcal Enterprises, Inc. v. Cal-Neva
Lodge, Inc. (1963) 217 Cal. App. 2d 799, 804, 32 Cal. Rptr.
106 [matter submitted and decided upon the record of the first
trial]; Lindsey v. Meyer (1981) 125 Cal.App.3d 536, 542, 178
Cal. Rptr. 1 [no new trial upon remand].)

2. Standard of review
"In reviewing a judgment based upon a statement of decision
following a bench trial, [*36] we review questions of law de
novo. [Citation.] We apply a substantial evidence standard of
review to the trial court's findings of fact. [Citation.] Under

this deferential standard of review, findings of fact are
liberally construed to support the judgment and we consider
the evidence in the light most favorable to the prevailing
party, drawing all reasonable inferences in support of the
findings. [Citation.]" (Thompson v. Asimos (2016) 6
Cal.App.5th 970, 981, 212 Cal. Rptr. 3d 158 (Thompson).)

3. Plaintiffs' breach of contract cause of action was collateral
included in the commercial sale
To determine whether plaintiffs lack standing to pursue their
breach of contract claim, we must first determine whether the
breach of contract claim was part of the collateral sold to U.S.
Bank. U.S. Bank purchased "[a]ll interests of any Debtor in
any of the intangible and tangible personal property described
on Exhibit B," including plaintiffs' general intangibles, at the
second collateral sale. The question, then, is whether the
breach of contract claim was among the personal property
pledged as collateral. Our analysis begins with the security
documents.
Pursuant to its terms, the Deed of Trust also functions as a
security agreement for personal property pledged as [*37]
collateral. Pursuant to the Deed of Trust, plaintiffs
"irrevocably mortgage[d], grant[ed], bargain[ed], s[old],
convey[ed], transfer[red], pledge[ed], act[ed] over and
assign[ed] to [U.S. Bank], WITH POWER OF SALE, and
create[d] a security interest in, all of [plaintiffs'] estate, right,
title and interest in, to and under any and all of the following
described property, whether now owned or hereafter acquired
by [plaintiffs]," including "[a]ll present and future . . . general
intangibles (including, without limitation, trademarks, trade
names, service marks and symbols . . . , all names by which
the Premises or the Improvements may be operated or known,
all rights to carry on business under such names, and all
rights, interest and privileges which [plaintiffs] ha[ve] or may
have as developer or declarant under any covenants,
restrictions or declarations now or hereafter relating to the
Premises or the Improvements) (collectively, the 'General
Intangibles') . . . ."
Article 13 of the Deed of Trust reinforces the same point,
stating the "Deed of Trust is also intended to encumber and
create a security interest in, and [Figueroa Tower] hereby
grants to [U.S. Bank] a security interest [*38] in . . . all . . .
general intangibles and other personal property included
within the Trust Property . . . whether or not the same shall be
attached to the Premises or the Improvements in any manner."
It further provides the "Deed of Trust constitutes a security
agreement" and that U.S. Bank "shall have all of the rights
and remedies of a secured party under any applicable Uniform
Commercial Code."

Page 11 of 13
2019 Cal. App. Unpub. LEXIS 2317, *38
The Deed of Trust does not separately define "general
intangibles." This does not, however, mean the term lacks a
definition. Because the Deed of Trust is, in part, a security
agreement, it is governed by Division 9 of the California
Uniform Commercial Code. (Cal. U. Com. Code, § 9109,
subd. (a)(1)9 [except as otherwise provided, Division 9
applies to "[a] transaction, regardless of its form, that creates
a security interest in personal property or fixtures by
contract"]; see also § 9109, subd. (d)(11)(D).) Section 9102,
subdivision (a)(42) defines "'[g]eneral intangible' . . . [as] any
personal property, including things in action, other than
accounts, chattel paper, commercial tort claims, deposit
accounts, documents, goods, instruments, investment
property, letter-of-credit rights, letters of credit, money, and
oil, gas, or other minerals before extraction. The term includes
payment [*39] intangibles and software."
Under California law, a thing in action is "a right to recover
money or other personal property by a judicial proceeding"
(Civ. Code, § 953; see also Baum v. Duckor (1999) 72
Cal.App.4th 54, 64, 84 Cal. Rptr. 2d 703), including "'a right
of action for . . . breach of contract [citation] . . . '" (Bisno v.
Kahn (2014) 225 Cal.App.4th 1087, 1104, 170 Cal. Rptr. 3d
709). Thus, plaintiffs' breach of contract cause of action was a
"thing in action" that fell within the category of "general
intangibles" plaintiffs pledged as collateral for the loan.
It is immaterial that plaintiffs' breach of contract cause of
action did not yet exist when the Deed of Trust was signed.
"[A] security agreement may create or provide for a security
interest in after-acquired collateral." (§ 9204, subd. (a); see
also Waltrip v. Kimberlin (2008) 164 Cal.App.4th 517, 528529, 79 Cal. Rptr. 3d 460.) While commercial tort claims are
excluded from this rule, contract actions are not. (See § 9204,
subd. (b)(2).) The Deed of Trust "create[d] a security interest
in, all of [plaintiffs'] estate, right, title and interest in, to and
under any and all of the following described property,
whether now owned or hereafter acquired," including "[a]ll
present and future . . . general intangibles." Thus, by its terms
and the terms of relevant statutes, the pledged collateral
encompassed "things in action," including plaintiffs' breach of
contract cause of action acquired [*40] after the execution of
the Deed of Trust.
Plaintiffs, however, argue the ejusdem generis canon
(California Cannabis Coalition v. City of Upland (2017) 3
Cal.5th 924, 939, 222 Cal. Rptr. 3d 210, 401 P.3d 49 [when
specific words follow general words, the general words
ordinarily are best construed in a manner that underscores
their similarity to the specific words]) limits the "general
9 Undesignated

statutory references that follow are to the California
Uniform Commercial Code.

intangibles" pledged as collateral to items directly related to
the Property's premises and improvements, and excludes the
breach of contract cause of action. That principle of statutory
interpretation has no application here. None of the personal
property listed alongside the "general intangibles" (namely
the funds, accounts, instruments, accounts receivable,
documents, or, notably, claims) are necessarily limited to the
premises or its improvements. Nor do the terms in the
parenthetical following "general intangibles" serve to limit its
scope. The specification of certain items, such as trademarks
and trade names, as general intangibles does not alter or
negate the definition of the term, which is provided by the
Uniform Commercial Code. This is particularly true since the
parenthetical includes explicit nonlimiting language: "without
limitation."
In addition, plaintiffs oppose a broad reading of the term
"general [*41] intangibles" on the ground that the security
interest could not reasonably be interpreted to encompass
intangibles not related to the Property. This argument fails on
two fronts. First, if the parties had wished to limit the scope of
the general intangibles pledged, they could have done so.
Other collateral pledged in the Deed of Trust was so limited,
such as the "insurance policies or binders now or hereafter
relating to the Trust Property." Second, and more
fundamentally, plaintiffs' cause of action for breach of the
Note and Deed of Trust is inherently related to the Property.
Plaintiffs also argue U.S. Bank could not have believed it
purchased plaintiffs' cause of action because it delayed in
asserting the standing defense until "nearly four years into the
litigation." The argument is both factually inaccurate and
logically untenable. U.S. Bank asserted plaintiffs' lack of
standing as an affirmative defense at least as early as 2013,
and provided further detail regarding lack of standing in
response to discovery requests in 2016.
Plaintiffs additionally advance a further smattering of
unpersuasive arguments. Plaintiffs continue to rely on Civil
Code section 1668 to argue U.S. Bank's interpretation of
the [*42] security agreement and sale would violate public
policy. (Civ. Code, § 1668 ["All contracts which have for
their object, directly or indirectly, to exempt anyone from
responsibility for his own fraud, or willful injury to the person
or property of another, or violation of law, whether willful or
negligent, are against the policy of the law"].) But Civil Code
section 1668 applies only when the public interest in
implicated, and the statute generally does not prohibit parties
from limiting liability for breach of contract. (See, e.g., Food
Safety Net Services v. Eco Safe Systems USA, Inc. (2012) 209
Cal.App.4th 1118, 1126, 147 Cal. Rptr. 3d 634 ["With respect
to claims for breach of contract, limitation of liability clauses
are enforceable unless they are unconscionable, that is, the

Page 12 of 13
2019 Cal. App. Unpub. LEXIS 2317, *42
improper result of unequal bargaining power or contrary to
public policy"].) Plaintiffs did not allege or argue
unconscionability, and there is no indication this commercial
contract dispute implicates the public interest. Plaintiffs argue
the breach of contract cause of action cannot be included in
the general intangibles because doing so would violate the
maxim that one cannot be both a plaintiff and defendant. The
1850's authority upon which plaintiffs rely, Bullard v. Kinney
(1858) 10 Cal. 60, 63 (Bullard), notes this ground is a
"technical" one that "may be considered as not so
material [*43] under our system of pleading"; moreover,
Bullard did not involve a situation where a defendant
purchased the general intangibles of a plaintiff, including the
pending cause of action, after the plaintiff commenced the
lawsuit. Finally, plaintiffs argue their breach of contract cause
of action could not have been included in the collateral
because section 9109, subdivision (d)(6) precludes "[a]n
assignment of a right to payment under a contract to an
assignee that is also obligated to perform under the contract."
Plaintiffs misread the statute, which merely provides that such
transactions are not covered by Division 9 of the Uniform
Commercial Code. (See § 9109, subd. (d)(6).) Moreover, the
argument is inapposite because plaintiffs did not assign a right
to payment to U.S. Bank. Plaintiffs pledged general
intangibles as security for their loan, and U.S. Bank ultimately
purchased those general intangibles.

9625.) Pursuant to section 9625, if a secured party does not
conduct a commercially reasonable sale, "a court may order
or restrain collection, enforcement, or disposition of
collateral." (§ 9625, subd. (a).) That secured party may also
be "liable for damages in the amount of any loss caused by a
failure to comply with [Division 9]," and the debtor may
recover damages. (§ 9625, subds. (b)-(c).) None of the
provided remedies, [*45] however, permit plaintiffs to have
the sale declared void and unwound.
Because U.S. Bank was both the secured party and the
transferee in this instance, remedies against a transferee are
also relevant. The Uniform Commercial Code provides "[a]
transferee that acts in good faith takes free of the rights and
interests described in subdivision (a) [the debtor's rights, the
security interest under which the disposition is made, and any
subordinate security interest or lien], even if the secured party
fails to comply with [Division 9] or the requirements of any
judicial proceeding." (§ 9617, subd. (b).) "If a transferee does
not take free of the rights and interests described in
subdivision (a), the transferee takes the collateral subject to all
of the following: [¶] (1) The debtor's rights in the collateral[;]
[¶] (2) The security interest or agricultural lien under which
the disposition is made [; and] [¶] (3) Any other security
interest or other lien." (§ 9617, subd. (c).) Section 9617 thus
provides that so long as the secured party acts in good faith
and conducts a commercially reasonable sale, the transferee
takes the purchased property free of other interests.

4. The reasonableness of the collateral sale
In addition to challenging the trial court's conclusion that the
pending breach of contract claim was one of the general
intangibles pledged as security for the loan—and thus one of
the general intangibles sold at the second collateral sale—
plaintiffs argue the sale was invalid because it was [*44] not
commercially reasonable.
Section 9610, subdivision (a) governs the disposition of
personal property collateral after a default. It provides that
"[a]fter default, a secured party may sell, lease, license, or
otherwise dispose of any or all of the collateral in its present
condition or following any commercially reasonable
preparation or processing." (§ 9610, subd. (a).) "Every aspect
of a disposition of collateral, including the method, manner,
time, place, and other terms, must be commercially
reasonable." (§ 9610, subd. (b).) A secured party is permitted
to purchase collateral at a public disposition, and at a private
disposition under certain circumstances. (§ 9610, subd. (c).)
Plaintiffs argue the sale was invalid because it was not
commercially reasonable. Section 9625 provides the "basic
remedies afforded to those aggrieved by a secured party's
failure to comply" with Division 9. (Comment No. 2 to §

"A disposition of collateral is made in a commercially
reasonable manner [*46] if the disposition satisfies any of the
following conditions: [¶] (1) It is made in the usual manner in
a recognized market[,] [¶] (2) It is made at the price current in
any recognized market at the time of disposition[, or] [¶] (3) It
is made otherwise in conformity with reasonable commercial
practices among dealers in the type of property that was the
subject of the disposition." (§ 9627, subd. (b); see also
Hutchison v. Southern California First Nat. Bank (1972) 27
Cal.App.3d 572, 583, 103 Cal. Rptr. 816.) "However, none of
the specific methods of disposition specified in subsection (b)
is required or exclusive[,]" and other methods may be
commercially reasonable. (Comment No. 3 to § 9627; see also
11 Anderson, Uniform Commercial Code, § 9-627:5 (3d
ed.1999).) Whether a disposition is commercially reasonable
is generally an "intensively factual" question that depends on
all of the circumstances existing at the time of the sale. (Ford
& Vlahos v. ITT Commercial Finance Corp. (1994) 8 Cal.4th
1220, 1235, 36 Cal. Rptr. 2d 464, 885 P.2d 877; see also
Aspen Enterprises, Inc. v. Bodge (1995) 37 Cal.App.4th 1811,
1827, 44 Cal. Rptr. 2d 763; Crocker Nat. Bank v. Emerald
(1990) 221 Cal.App.3d 852, 862, 270 Cal. Rptr. 699.)
The trial court found U.S. Bank had demonstrated it

Page 13 of 13
2019 Cal. App. Unpub. LEXIS 2317, *46
"conducted the sale in a commercially reasonable manner by
giving notice, advertising the sale, and conducting the sale
appropriately." We review the trial court's findings of fact for
substantial evidence (Thompson, supra, 6 Cal.App.5th at p.
981) and conclude the requisite evidence is present. The
record indicates U.S. Bank gave plaintiffs notice of the sale, a
fact plaintiffs [*47] have not disputed, and U.S. Bank ran an
advertisement for the sale in the Los Angeles Times on two
separate dates. While plaintiffs argue the advertising was
insufficient because it did not specifically identify this lawsuit
as one of the general intangibles being sold, a description of
collateral reasonably identifies the collateral if it identifies the
collateral by category. (§ 9108, subd. (b)(2).) The
advertisement's identification of "general intangibles,"
specifically in light of its reference to the definitions in the
Uniform Commercial Code, was sufficient.

enforce the real property [*49] security under real property
law, enforce the security interest on personal property or
fixtures under the Uniform Commercial Code, or conduct a
unified sale of the real property and some or all of the
personal property. (§ 9604, subd. (a)(1).) The propriety of the
real property foreclosure is thus irrelevant to the personal
property foreclosure. If plaintiffs defaulted and U.S. Bank
was entitled to foreclose, it was entitled to foreclose on the
real and personal property in any order it desired.
DISPOSITION
The judgment is affirmed. U.S. Bank shall recover its costs on
appeal.
BAKER, J.
We concur:

Plaintiffs additionally argue the sale could not have been
commercially reasonable because U.S. Bank failed to ensure a
higher realization and conduct a sale to the "highest bidder."
This argument too fails because "[t]he fact that a greater
amount could have been obtained by a collection,
enforcement, disposition, or acceptance at a different time or
in a different method from that selected by the secured party
is not of itself sufficient to preclude the secured party from
establishing that the collection, enforcement, disposition, or
acceptance was made in a commercially reasonable manner."
(§ 9627, subd. (a).)
Finally, plaintiffs appear to assert the sale [*48] was invalid
because they demonstrated their actual remaining debt was
less than the amount of U.S. Bank's credit bid at the real
property foreclosure sale. However, for the purposes of this
trial plaintiffs stipulated they owed at least $35,000 after the
real property foreclosure and asked the trial court to use that
fact to reach a conclusion on the merits. In a footnote on
reply, plaintiffs argue they reserved their right to challenge
the stipulation on appeal. Putting aside that any rights
plaintiffs reserved are so vague as to be unidentifiable,
plaintiffs cannot stipulate to a key fact below, induce the trial
court to rely upon the stipulated fact, and then say the trial
court erred by doing so. Plaintiffs are bound by the facts to
which they stipulated.

5. The validity of the Uniform Commercial Code sale is not
dependent on the validity of the real property foreclosure
Plaintiffs argue that if the real property foreclosure was
invalid, so was the sale of the personal property. Plaintiffs
misunderstand the applicable law. Where an obligation
secured by a security interest in personal property is also
secured by an interest in real property, a secured party may

RUBIN, P. J.
KIM, J.

End of Document

